    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
            18                                                                           h
                                                                                  90 - t Street, Suite 3-650
                                                                                  San Francisco, CA 94103




Report Number: A-09-09-00052

Ms. Gail Madison
Director, RCM Revenue Control
Providence Regional Medical Center Everett
2001 Lind Avenue SW
Renton, Washington 98057

Dear Ms. Madison:

Enclosed is the u.s. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Oxaliplatin Billing at Providence Regional
Medical Center Everett for Calendar Year 2005." We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
(415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
report number A-09-09-00052 in all correspondence.

                                               Sincerely,

                                          (7)"--      6/,    ~
                                               Lori A. Ahlstrand
                                               Regional Inspector General
                                                for Audit Services


Enclosure
Page 2 - Ms. Gail Madison


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

    OXALIPLATIN BILLING AT

    PROVIDENCE REGIONAL

   MEDICAL CENTER EVERETT

   FOR CALENDAR YEAR 2005





                    Daniel R. Levinson

                     Inspector General


                        May 2009

                      A-09-09-00052

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEl reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
serVIces.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1, 2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Providence Regional Medical Center Everett (Providence Everett) is an acute-care hospital
located in Everett, Washington. We reviewed payments to Providence Everett for oxaliplatin
provided to Medicare beneficiaries during calendar year (CY) 2005.

OBJECTIVE

Our objective was to determine whether Providence Everett billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

During CY 2005, Providence Everett did not bill Medicare in accordance with Medicare
requirements for the one oxaliplatin outpatient claim that we reviewed. Providence Everett
billed Medicare for an incorrect number of service units for that claim and received an
overpayment of $29,678. The overpayment occurred because of confusion related to two
oxaliplatin Healthcare Common Procedure Coding System codes that had different service unit
Sizes.

RECOMMENDATIONS

We recommend that Providence Everett:

    •    refund to the fiscal intermediary $29,678 for the identified overpayment and

    •    ensure that service units of drugs billed correspond to units of drugs administered.

PROVIDENCE EVERETT COMMENTS

In its comments on our draft report, Providence Everett provided information on actions taken to
implement the recommendations. Providence Everett's comments are included in their entirety
as the Appendix.
                            TABLE OF CONTENTS



INTRODUCTION                                         1


    BACKGROUND                                       1

        Outpatient Prospective Payment System        1

        Oxaliplatin                                  1

        Providence Regional Medical Center Everett   1


    OBJECTIVE, SCOPE, AND METHODOLOGy                1

         Objective                                   1

         Scope                                       1

         Methodology                                 2


FINDING AND RECOMMENDATIONS                          2


    MEDICARE REQUIREMENTS                            2


    INCORRECT NUMBER OF SERVICE UNITS BILLED         3


    RECOMMENDATIONS                                  3


    PROVIDENCE EVERETT COMMENTS                      3


APPENDIX

    PROVIDENCE EVERETT COMMENTS




                                       11
                                       INTRODUCTION


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1,2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Providence Regional Medical Center Everett

Providence Regional Medical Center Everett (Providence Everett) is an acute-care hospital
located in Everett, Washington. Providence Everett's Medicare claims are processed and paid by
Noridian Administrative Services, the fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Providence Everett billed Medicare for oxaliplatin in
accordance with Medicare requirements.

Scope

We identified and reviewed one claim for which Providence Everett billed HCPCS code C9205
for more than 100 service units of oxaliplatin and received a Medicare payment of $32,303 for
oxaliplatin furnished to a hospital outpatient during calendar year (CY) 2005.

We limited our review of Providence Everett's internal controls to those applicable to billing for
oxaliplatin services because our objective did not require an understanding of all internal



                                                 1

controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS's National Claims History file
for CY 2005, but we did not assess the completeness of the file.

We performed our audit from December 2008 through April 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CY 2005 to identify Medicare claims for
      which Providence Everett billed at least 100 service units of oxaliplatin under HCPCS
      code C9205 and received Medicare payments for those units;

   •	 contacted Providence Everett to determine whether the identified oxaliplatin services
      were billed correctly and, if not, why the services were billed incorrectly;

   •	 obtained and reviewed records from Providence Everett that supported the identified
      claim; and

   •	 calculated the overpayment using corrected payment information processed by Noridian
      Administrative Services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CY 2005, Providence Everett did not bill Medicare in accordance with Medicare
requirements for the one oxalip1atin outpatient claim that we reviewed. Providence Everett
billed Medicare for an incorrect number of service units for that claim and received an
overpayment of $29,678. The overpayment occurred because of confusion related to two
oxaliplatin HCPCS codes that had different service unit sizes.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No.1 00-04, chapter 4, section 20.4, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In




                                               2

addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code Cn05
effective July 1, 2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1,2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2005, Providence Everett billed Medicare for an incorrect number of service units for
the one oxaliplatin outpatient claim that we reviewed. Providence Everett billed 400 service
units for 200 milligrams of oxaliplatin administered instead of the appropriate 40 service units.
Medicare required billing one service unit for each 5 milligrams of oxaliplatin administered. For
the one claim, Providence Everett received an overpayment of $29,678.

The overpayment occurred because of confusion related to oxaliplatin HCPCS codes C9205 and
J9263, which had different service unit sizes.

RECOMMENDATIONS

We recommend that Providence Everett:

   •   refund to the fiscal intermediary $29,678 for the identified overpayment and

   •   ensure that service units of drugs billed correspond to units of drugs administered.

PROVIDENCE EVERETT COMMENTS

In its comments on our draft report, Providence Everett provided information on actions taken to
implement the recommendations. Providence Everett's comments are included in their entirety
as the Appendix.




                                                 3

APPENDIX

                                                                                          APPENDIX





t        PROVIDENCE
         Regional Medical Center
         Everett


May 1,2009

Lori Ahlstrand
Officc of Inspector General
Region IX
Office of Audit Services
90 .- 7th Street, Suite 3·650
San Francisco, CA 94103

Dear Ms Ahlstrand:

HE: Draft Report A-09-09-00052

Thank you for the opportunity to respond to your Draft Report. After veri fying the
dosage ofOxaliplatin given to thc patient, a corrected UB04 was sent to Noridian on
1/8/09 rcfiecting the correction of units based on the C920S description. .Noridian has
acknowledged the correction with a take back of the original payment and issue of a
corrected payment based on the proper units billed.

~vidence Regional Medical Center Everett has put procedures in place to ensure this
type of error does not occur in the future.

Thank you for your assistance in this audit process.


Si4~IY~~ J­
~~ ~~
RCM Audil< /Analyst
Providence Health & Services
909 N Broadway
Ev<.'rctt W 1\ 98206
(425) 317..(1163
rex (425) 317-0244
